audit report



Return to the USDOJ/OIG Home Page



Use of Equitable Sharing Revenues by the New York State Department of Environmental Conservation
Division of Law Enforcement
GR-70-99-009
August 25, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The United States Department of Justice, Office of the Inspector General has completed an audit of the use of equitable sharing revenues by the New York State Department of Environmental Conservation, Division of Law Enforcement.  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.  

Generally, the Division of Law Enforcement complied with the equitable sharing guidelines.  However, we found the following conditions during our audit.

The FY 1996 Annual Certification Report was not submitted, and the FY 1997 and FY 1998 reports were not submitted timely.  Equitable sharing fund balances and budget totals were not properly reported on the FY 1998 report.

	Internal controls over equitable sharing funds needed strengthening.

	We questioned $931 in unsupported costs and $1,360 in excess indirect costs.

The audit results are discussed in the Findings and Recommendations section of this report.  Our audit Objectives, Scope, and Methodology appear in Appendix I.